appendix
UNPUBLISHED

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2084

RICHARD E. BOGGS,
Plaintiff - Appellant,
v.
UNITED STATES,
Defendant - Appellee,
and
DEPARTMENT OF TREASURY; INTERNAL REVENUE SERVICE; C.K. O NEAL,
Defendants.
District Court for the District of South Carolina, at Columbia.
Appeal from the United States
Mary G. Lewis, District Judge. (3:18-cv-01915-MGL)
Decided: March 2, 2020

Submitted: February 7, 2020
Before NIEMEYER, KING, and RICHARDSON, Circuit Judges.

Affirmed by unpublished per curiam opinion.
Robert Joel Branman, Michael J. Haungs,
united states department of JUSTICE.

A1

vv asuuigiun, i J.^. iui /Appcncc.

Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Richard E. Boggs appeals from the district court’s order adopting the recommendation of
the magistrate judge and granting the Defendants’ motion to dismiss. Boggs sought damages for
improperly withheld taxes, specifically from “compensation for services,” under 26 U.S.C. § 7433
(2018). Boggs contends that “compensation for services" is not ‘ gross income. ” However, contrary
to Boggs’ assertions, “compensation for services is wages and, thus, taxable income. See e.g.,
United States v.

Sullivan, 788 F.2d 813, 815 (1st Cir. 1986) (noting that “[cjourts uniformly have

rejected as frivolous the arguments that money received in compensation for labor is not taxable
income”); see also 26 U.S.C.

§ 61(a)(1) (2018) (including “[cjompensation for services

in

definition of “gross income’'). Accordingly, the actions of the IRS employees did not violate the
law, and Boggs has, thus, failed to state a claim under § 7433. Accordingly, we affirm. We dispense
with oral argument because facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
AFFIRMED

A2

FILED: May 18, 2020
UNITED STATES COURT OF APPEALS FOR THE FOURTH
CIRCUIT
No. 19-2084
(3:18-cv-01915-MGL)

RICHARD E. BOGGS
Plaintiff - Appellant
v.
UNITED STATES
Defendant - Appellee
and
DEPARTMENT OF TREASURY; INTERNAL REVENUE SERVICE; C. K. O'NEAL
Defendants

ORDER

The court denies the petition for rehearing.

Entered at the direction of the panel: Judge Niemeyer, Judge King, and Judge Richardson.
For the Court
/s/ Patricia S. Connor. Clerk

A3

In reply refer to:
XXX-XX-5787

0866000000 Oct. 27, 2016
000000 00

LTR2801CW3
00319407
BODC: NOBOD

RICHARD E BOGGS
7001 ST ANDREWS ROAD 124
COLUMBIA SC 29212-1137
Social security number: XXX-XX-5787 Employer: LOGICTECHNOLOGY
Esrp layer identification number i

INC

14-1718796

Dear RICHARD E BOGGS
WHY WE ARE WRITING TO YOU
Generally, the amount your employer withholds for federal incometax is based on
your Form W-4, Employee's Withholding Allowance Certificate. However, the IRS
may review whether you are entitledto claim exempt status or a certain number of
withholding allowances.
We determined you aren’t entitled to claim exempt status or more than a specified
number of withholding allowances; therefore, you were selected for the Withholding
Compliance Program.
INSTRUCTIONS WE GAVE YOUR EMPLOYERCS)
We sent your employer a "lock-in letter" instructing your employerto begin
withholding income tax from your wages based on the following withholding rate
(marital status) and allowances:
Withholding Rate (Marital Status) single
Withholding Allowances:0000
We also instructed your employer(s)not to honor your curent Form W-4 or a new Form
W-4 from you, UNLESS it results in MORE withholding than at the withholding rat e and
withholding allowances listedabove.
WHAT THIS CHANGE MEANS FOR YOU
This change in your withholding rate (marital status) and/ or withholding allowances
will increase the amount of tax withheldfrom your wages.
IF YOU DON’T AGREE
You can request a review of our determination. You can call us at the number listed
below within 30 days from the date of thisletter.
We will consider your explanation why you are entitled to a different withholding
rate and/or number of withholding allowances (or exempt status). If you file jointly,
we will need todetermine

A4

0866000000 '
Oct. 27, 2016
2801C
XXX-XX-5787

LTR
W3
000000 00
00319408

RICHARD E BOGGS
7001 ST ANDREWS ROAD 124
COLUMBIA SC 29212-1137
the total number of withholding allowances you and your spouse are entitled to claim.
- When you call, have the following information available. If you
file jointly, you must have the same information available for
1.

your spouse.
Completed Form W-4 and worksheets.

2.

Most recent pay stubs for all

3.
4.
5.
6.

(You must complete the "Two

Earners/Multiple Jobs Worksheet" on the back of the Form W-4, if you have more than
one job or your spouse works.)
jobs.

Number of withholding allowances you (and your spouse) are currently
claiming on your Form(s) W-4.
The social security number and date of birth for all dependent you
are entitled to claim.
A copy of the most recent tax return due, including all
schedules, forms and attachments.
If you file jointly, your spouse's complete name,
number (SSN), and current employer.

social security

If you prefer you can write to us at the address listed below.
Send a written statement r questing a redetermination and the
information above to support your claim that you are entitled to
a different withholding rate (marital status) and/or number of
withholding allowances (or exempt status) .
If the information justifies a change to the withholding rate

(marital status) and/or withholding allowances listed above, wewill instruct your
employer(s) to adjust your income tax withholding accordingly.
YOU COULD BE ASSESSED A PENALTY
If there is no reasonable basis to justify the withholding rate (marital status),
withholding allowances, or exempt status claimedon your Form W-4 you furnished to
your employer, you may be subject to a
$500 civil penalty under Internal Revenue Code Section 6682 formaking a false
statement about your withholding.
We aren't making a determination of your ultimate tax liability.
Youpayfederalincometaxthroughwithholdingorbymakingestimated tax payments throughout
the year. Estimated tax is the method that can be used to pay tax on income that isn t subject to
withholding. If you don't pay enough tax throughout the year; you may have to pay a penalty for
underpayment of estimated tax.
A5

LTR 2801C
W3

xxx-xx-

0

5787
00000 00

00319409

RICHARD E BOGGS
7001 ST ANDREWS ROAD 124
COLUMBIA
SC 29212-1137

HOW YOU CAN BE RELEASED FROM THE
WITHHOLDING COMPLIANCE PROGRAM
You must continue to file returns and pay your tax due. If
youtimely meet all your filing and payment obligations
for three consecutive years, you can request that we
release you from the Withholding Compliance Program.
WHERE YOU CAN FIND ADDITIONAL
INFORMATION
Visit our website at www.irs.gov and search
keyword "withholding compliance."
Publication 505, Tax Withholding and
Estimated Tax
For tax forms, instructions and publications,
visit www.irs.gov or call 1-8 0 0-TAX-FORM ( 1800-829-3676).

HOW TO CONTACT THE WITHHOLDING
COMPLIANCE UNIT
You can call the Withholding Compliance Unit,
weekdays between 8a.m. and 8 p.m. at 1-855-839-2235
You can send us the information by fax. Our fax number
is
855-202-8300. Include a cover sheet with the following
information:
Sincerely yours,
C.K.ONeal
Operations Manager, Collections

A6

Publication 17 (2016), Your Federal Income Tax for Individuals

Gains and Losses
The four chapters in this part discuss investment gains and losses,
including how to figure your basis in property. A gam from selling or trading
stocks, bonds, or other investment property generally is taxable. A loss may or
may not be deductible. These chapters also discuss gains from selling property you
. Nonbusiness
personally use — including the special rules for selling your home
casualty and theft losses are discussed in chapter 25 m Part Five.
13. Basis of Property
Introduction
This chapter discusses how to figure your basis in property. It is
divided into the following sections.
Cost basis.
Adjusted basis.
Basis other than cost.
Your basis is the amount of your investment in property for tax
purposes.

Use the basis to figure the gain or loss on the sale, exchange, or

other disposition of property. Also use it to figure deductions for
depreciation, amortization, depletion, and casualty losses.
If you use
purposes
the use.

property for both business or for production of income

, and for personal purposes, you must allocate the basis based on

Only the basis allocated to the business or the production of income

part of the property can be depreciated.
A7

Your original basis in property is adjusted (increased or decreased)
by certain events. For example, if you make improvements to the property,
increase your basis. If you take deductions for depreciation or casualty
losses, or claim certain credits, reduce your basis.
Cost Basis
The basis of property you buy is usually its cost. The cost is the
amount you pay in cash, debt obligations, other property, or
services. Your cost also includes amounts you pay for the following items:
Sales tax,
Freight,
Installation and testing,
Excise taxes,
Legal and accounting fees (when they must be capitalized),
Revenue stamps,
Recording fees, and
Real estate taxes (if you assume liability for the seller).
In addition, the basis of real estate and business assets may include
other items.

A8

Richard E. Boggs
7001 St Andrews Rd., #124
Columbia, South Carolina 2921 2
IRS Compliance Services Withholding Compliance Unit
P.O. Box 9047, Stop 837
Andover, MA 01810-0947
Re: Appeal of W-4 determination
Dear IRS Agent:
This is a formal appeal of your form letter LTR 2801C, which you recently
sent me whereby you made a determination about my W-4 certificate
filed with my employer.
I disagree with your wrongful determination in its entirety. Please furnish me
the information and reasons on which you based your decision. Then schedule
my appeal for a hearing and notify me of the place and time.
Send me all the necessary forms and information I might need to perfect
my appeal. If I have used the incorrect procedures to appeal your unlawful
decision, please notify me of your preferred method. Unless I hear
otherwise from you within 10 days, I will consider this appeal correctly
filed.
My W-4 form was correctly filed and you have no authority co determine
otherwise. In fact, the Internal Revenue Code Section 3402 provides that
the employer MUST accept my withholding certificate as filed.
I have additional information for you to consider and I have a reasonable basis
for the statements made on my form. Please inform me how you will evaluate
the information, your criteria and standards. Also, would you inform me what
additional information would satisfy your standards?
Please do not interfere anymore with the contractual relationship between my
company and me. You have no right or authority to harass my employer. Direct
all of your communication to my company through me.
By copy of this letter, I am notifying my employer that this matter is
i on
appeal through the IRS Administrative appeals process and until a final
determination has been mad.e there, they can disregard any notices from
your agency.
Date: -2 t. wz

Sincerely.

2/LL
A9

In reply refer to: 0866145811 Dec.
LTR 3042C 0
27, 2016
-5787 000000 00

De-partment of the Treasu rv

31 OLowell Street Stop 837
Andover MA 01810

# ** - £ •

00003077
BODC: W1

RICHARD E BOGGS
7001 ST ANDREWS ROAD 124
SC 29212-1137
COLUMBIA
005745

Social Security Number:

isfflsasaaaa-5787

Dear Richard E Boggs:
WHY ARE WE WRITING TO YOU?
This letter is in response to your inquiry asking for information a^ ^|^ e^
ins
authority supporting the IRS Withholding Compliance Program. This letter contain
Citations for the laws and regulations that give us authority Where you can
find these laws and regulations
^havet “.at
S-your entp.oyer Wha, to do if
you have more Question s
WHAT LAWS AND REGULATIONS GIVE US AUTHORITY FOR THE
WITHHOLDING COMPLIANCE PROGRAM?
Se'ctTons^TId 3403 (Title 26 of the United States Code)
sSXSi through 3L3402Cf)C6,-lCTi„e 26 of the Code of
sSon m!U402(OC2j” Eg(masuty Decision 9337, Withholding Exemptions, 72 F
38478 (Federal Register, July 13,2007)
WHERE CAN YOU FIND THESE LAWS AND REGULATIONS?
You can find copies of the Internal Revenue Code, the Code of Federal Regulations,
and the Federal Register at many local libraries. You can also find Laws and
Regulations" at the Reference Center on www.usa gov. Treasury Decision 933
available at www.irs.gov/ pub/irs -irbs/irb07-35.pdt.
WHAT AUTHORITY DO THE LAWS AND REGULATIONS GIVE US?
A10

The IRS has the authority to ensure that the deduction and withholding of federal
income tax from your wages is in compliance with the laws and regulations, cited abo
ve. They give us the authority, when necessary, to instruct employers to withhold taxes
from your wages based on the marital status and number of withholding allowances that
we specify.
IRC Section 3403 hold s employers liable to the United States forthe federal income
taxes that the laws and regulations require your employer to deduct and withhold.
CAN YOU TAKE LEGAL ACTION AGATNTTT YOUR EMPLOYER?

IRC Section 3403 also states that the employer shall not be liable to any person for the
amount of any payment required to be deducted and withheld. Thus, when your
employer complies with the laws and
regulation s listed above and withholds federal income tax from your wages, you have
no "cause of action" (basis for legal action) against your employer to recover the amount
of income tax withheld and/or to prohibit your employer from withholding the amount
as instructed
by IRS.
WHAT IF YOU HAVE MORE QUESTIONS?

If you have any questions, you may call the Withholding Compliance Unit,
weekdays between 8:00 a.m. and 8:00 p.m. at
1-855-839-2235.

Sincerely yours,
C. K. □'Neal
Operations Manager, Collections

All

Constitutional Amendment, Statutes,
and

Regulations involved
(PERTINENT TEXT)

The Fifth Amendment of the United States Constitution provides:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a grand jury, except in cases arising m
the land or naval forces, or in the militia, when in actual service in time of war or
public danger; nor shall any person be subject for the same offense to be twice put
in jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without
due process of law; nor shall private property be taken for public use, without
just compensation.

5 U.S.C. § 706 provides:
To the extent necessary to decision and when presented, the reviewing court
shall decide all relevant questions of law, interpret constitutional and statutory
provisions, and determine the meaning or applicability of the terms of an agency
action. The reviewing court shall—
(1) compel agency action unlawfully withheld or unreasonably delayed,
and
(2) hold unlawful and set aside agency action, findings, and conclusions
A12

found to be—
(A) arbitrary, capricious, an abuse of discretion, or otherwise not in
accordance with law;
(B) contrary to constitutional right, power, privilege, or immunity;
(C) in excess of statutory jurisdiction, authority, or limitations, or
short of statutory right;
(D) without observance of procedure required by law;
(E) unsupported by substantial evidence in a case subject to
sections 556 and 557 of this title or otherwise reviewed on the
record of an agency hearing provided by statute; or
(F) unwarranted by the facts to the extent that the facts are subject
to trial de novo by the reviewing court.
In making the foregoing determinations, the court shall review the whole record
or those parts of it cited by a party, and due account shall be taken of the rule of
prejudicial error.
(Pub. L. 89-554, Sept. 6, 1966, 80 Stat. 393.)

26 U.S.C. § 61 provides:
Gross Income Defined, (a) General Definition.- Except as otherwise provided
in this subtitle, gross income means all income from whatever source derived,
including (but not limited to) the following items;
(1) Compensation for services, including fees, commissions, fringe benefits,
and similar items;
A13

(2) Gross income derived from business;
(3) Gains derived from dealings in property; ...

26 U.S.C. § 61(b) provides:
Cross references. For items specifically included in gross income, see part
II (sec. 71 and following). For items specifically excluded from gross income , see
part III (sec. 101 and following).

26 U.S.C. § 83 provides:
Property Transferred in Connection with the Performance of Services, (a) If, m
connection with the performance of services, property is transferred.

the

excess of (1) the fair market value of such property... over,
(2) the amount (if any) paid for such property,
services...
shall be included in the gross income of the person who performed such

26 U.S.C. § 212 provides:
Expenses for Production of Income
allowed as a

. In the case of an individual, there shall be

deduction all the ordinary and necessary expenses paid or incurred

during the taxable year(1) for the production or collection of income; ...

26 U.S.C. § 1001(a) provides:
A14

Computation of Gain or Loss. The gain from the sale or other disposition of
property shall be the excess of the amount realized therefrom ovei the adjusted
basis provided in section 1011...

26 U.S.C. § 1011(a) provides:
General rule. The adjusted basis for determining the gain or loss from the sale or
other disposition of property, whenever acquired, shall be the basis (determined
under section 1012...) ...

26 U.S.C. § 1012 provides:
Basis of Property-Cost, (a) In general. The basis of property shall be the cost of
such property ...

26 U.S.C. § 3402(n) provides:
Employees incurring no income tax liability Notwithstanding any other
provision of this section, an employer shall not be required to deduct and withhold
any tax under this chapter upon a payment of wages to an employee if there is in
effect with respect to such payment a withholding exemption certificate (in such
form and containing such other information as the Secretary may prescribe)
furnished to the employer by the employee certifying that the employee—
(1)
incurred no liability for income tax imposed under subtitle A for his
preceding taxable year, and
A15

(2)
anticipates that he will incur no liability for income tax imposed under
subtitle A for his current taxable year.
The Secretary shall by regulations provide for the coordination of the
provisions of this subsection with the provisions of subsection (f).

26 U.S.C. § 7214 provides:
Offenses by officers and employees of the United States.
(a) Unlawful acts of revenue officers or agents. Any officer or employee of the
United States acting in connection with any revenue law of the United States (1) who is guilty of any extortion or willful oppression under color of law; or
(2) who knowingly demands other or greater sums than are authorized by
law, or receives any fee, compensation, or reward, except as by law prescribed, for
the performance of any duty; or
(3) who with intent to defeat the application of any provision of this
title fails to perform any of the duties of his office or employment; or
(4) who conspires or colludes with any other person to defraud the United States;
or
(5) who knowingly makes opportunity for any person to defraud the
United States; or
(6) who does or omits to do any act with intent to enable any other person
to defraud the United States; or
(7) who makes or signs any fraudulent entry in any book, or makes or signs
A16

any fraudulent certificate, return, or statement; or
(8) who, having knowledge or information of the violation of any revenue
law by any person, or of fraud committed by any person against the United States
under any revenue law, fails to report, in writing, such knowledge or information
to the Secretary; or
(9) who demands, or accepts, or attempts to collect, directly or indirectly as
payment or gift, or otherwise, any sum of money or other thing of value for the
compromise, adjustment, or settlement of any charge or complaint for any
violation or alleged violation of law, except as expressly authorized by law so to
do;
shall be dismissed from office or discharged from employment and, upon
conviction thereof, shall be fined not more than $10,000, or imprisoned not more
than 5 years, or both. The court may in its discretion award out of the fine so
imposed an amount, not in excess of one-half thereof, for the use of the informer,
if any, who shall be ascertained by the judgment of the court.
The court also shall render judgment against the said officer or employee for
the amount of damages sustained in favor of the party injured, to be collected by
execution.

26 U.S.C. § 7345 (a)(3) provides:

Revocation or denial of passport in case of certain tax delinquencies.
(a) In general. If the Secretary receives certification by the Commissioner of
A17

Internal Revenue that an individual has a seriously delinquent tax debt, the
Secretary shall transmit such certification to the Secretary of State for action with
respect to denial, revocation, or limitation of a passport pursuant to section 32101
of the FAST Act.
(b) Seriously delinquent tax debt.
(1) In general. For purposes of this section, the term “seriously delinquent
tax debt” means an unpaid, legally enforceable Federal tax liability of an
individual (A) which has been assessed,
(B) which is greater than $50,000, and
(C) with respect to which (i) a notice of lien has been filed pursuant to section 6323 and the
administrative rights under section 6320 with respect to such filing have been
exhausted or have lapsed, or
(ii) a levy is made pursuant to section 6331.
(2) Exceptions. Such term shall not include (A) a debt that is being paid in a timely manner pursuant to an agreement
to which the individual is party under section 6159 or 7122, and
(B) a debt with respect to which collection is suspended with respect to the
individual (i) because a due process hearing under section 6330 is requested or
pending, or
(ii) because an election under subsection (b) or (c) of section 6015 is made or
A18

relief under subsection (f) of such section is requested.

26 U.S.C. § 7433 provides:
(a)In general
If, in connection with any collection of Federal tax with respect to a taxpayer, any
officer or employee of the Internal Revenue Service recklessly or intentionally, or
by reason of negligence, disregards any provision of this title, or any regulation
promulgated under this title, such taxpayer may bring a civil action for damages
against the United States in a district court of the United States. Except as
provided in section 7432, such civil action shall be the exclusive remedy for
recovering damages resulting from such actions.
(b)Damages In any action brought under subsection (a) or petition filed under
subsection (e), upon a finding of liability on the part of the defendant, the
defendant shall be liable to the plaintiff in an amount equal to the lesser of
$1,000,000 ($100,000, in the case of negligence) or the sum of(1)
actual, direct economic damages sustained by the plaintiff as a proximate
result of the reckless or intentional or negligent actions of the officer or
employee, and
(2)

the costs of the action.

26 U.S.C. § 7803 provides:
A19

[Commissioner of Internal Revenue; other officials.]
(3) Execution of duties in accord with taxpayer rights. In discharging his duties,
the Commissioner shall ensure that employees of the Internal Revenue Service
are familiar with and act in accord with taxpayer rights as afforded by other
provisions of this title, including (A) the right to be informed,
(B) the right to quality service,
(C) the right to pay no more than the correct amount of tax,
(D) the right to challenge the position of the Internal Revenue Service and
be heard,
(E) the right to appeal a decision of the Internal Revenue Service in an
independent forum,
(F) the right to finality,
(G) the right to privacy,
(H) the right to confidentiality,
(I) the right to retain representation, and
(J) the right to a fair and just tax system.

26 C.F.R. 1.83-3(g) provides:
Amount paid. For the purposes of section 83 and the regulations thereunder,
the term “amount paid” refers to the value of any money or property paid for the
transfer of property to which § 83 applies.

A20

26 C.F.R. 1.83-4(b)(2) provides:
If property to which 1.83-1 applies is transferred at an arm s length, the basis
of the property in the hands of the transferee shall be determined under
section 1012 and the regulations thereunder.

26 C.F.R. 1.1001-1 provides:
Computation of gain or loss.
(a) General rule. Except as otherwise provided in subtitle A of the Code, the gain
or loss realized from the conversion of property into cash, or from the exchange of
property for other property differing materially either in kind or in extent, is
treated as income or as loss sustained. The amount realized from a sale or other
disposition of property is the sum of any money received plus
the fair market value of any property (other than money) received. The fair market
value of property is a question of fact, but only in rare and extraordinary cases will
property be considered to have no fair market value. The general method of
computing such gain or loss is prescribed by section 1001(a) through (d) which
contemplates that from the amount realized upon the sale or exchange there shall
be withdrawn a sum sufficient to restore the adjusted basis prescribed by section
1011 and the regulations thereunder (i.e., the cost or other basis adjusted for
receipts, expenditures, losses, allowances, and other items chargeable against and
applicable to such cost or other basis). The amount which remains after the
adjusted basis has been restored to the taxpayer constitutes the realized gain.

A21

26 C.F.R. 1.1011-1 provides:
Adjusted basis. - The adjusted basis ... is the cost or other basis prescribed in
section 1012[.]

26 C.F.R. 1.1012-l(a) provides:
. . . The cost is the amount paid for such property in cash or other property.

26 C.F.R. 301.7433-1 provides:
a) In general. If, in connection with the collection of a federal tax with respect to
a taxpayer, an officer or an employee of the Internal Revenue Service recklessly
or intentionally , or by reason of negligence, disregards any provision of the
Internal Revenue Code or any regulation promulgated under the Internal Revenue
Code,

such taxpayer may

bring

a

civil action for

damages

against

the

United States in federal district court. The taxpayer has a duty to mitigate
damages. The total amount of damages recoverable is the lesser of $1,000,000
($100,000 in the case of negligence), or the sum of:
(1) The actual, direct economic damages sustained as a proximate result of the
reckless or international actions of the officer or employee; and
(2) Costs of the action.
An action for damages filed in federal district court may not be maintained unless
the taxpayer has filed an administrative claim pursuant to paragraph (e) of this
section, and has waited for the period required under paragraph (d) of this
A22

section.
(b) Actual, direct economic damages (1) Definition. Actual, direct economic damages are actual pecuniary damages
sustained by the taxpayer as the proximate result of the reckless or intentional,
or negligent, actions of an officer or an employee of the Internal Revenue
Service. Injuries such as inconvenience, emotional distress and loss of
reputation are compensable only to the extent that they result in actual
pecuniary damages.
(2) Litigation costs and administrative costs not recoverable. Litigation
costs and administrative costs are not recoverable as actual, direct economic
damages. Litigation costs may be recoverable under section 7430 (see paragraph
(h) of this section) or, solely to the extent described in paragraph (c). of this
section, as costs of the action.
(i) Litigation costs. For purposes of this paragraph, litigation costs are any
costs incurred pursuing litigation for relief from the actipntaken by the officer
or employee of the Internal Revenue Service, including costs incurred
pursuing a civil action in federal district court under paragraph (a) of this
section. The term litigation costs includes the following:
(A) Court costs;
(B) Expenses of expert witnesses in connection with a court proceeding;

A23

(C) Cost of any study, analysis, engineering report, test, or project prepared
for a court proceeding; and
(D) Fees paid or incurred for the services of attorneys, or other individuals
authorized to practice before the court, in connection with a court
proceeding.
(ii) Administrative costs. For purposes of this section, administrative costs
are any costs incurred pursuing administrative relief from the action taken
by an officer or employee of the Internal Revenue Service, including costs
incurred pursuing an administrative claim for damages under paragraph
(e) of this section. The term administrative costs includes:
(A) Any administrative fees or similar charges imposed by the Internal
Revenue Service; and
(B) Expenses, costs, and fees described in paragraph (b)(2)(i) of this section
incurred pursuing administrative relief.
(c) Costs of the action. Costs of the action recoverable as damages under this
section are limited to the following costs:
(1) Fees of the clerk and marshall;
(2) Fees of the court reporter for all or any part of the stenographic transcript
necessarily obtained for use in the case;
(3) Fees and disbursements for printing and witnesses;

A24

(4) Fees for exemplification and conies of paper necessarily obtained for use in
the case;
(5) Docket fees; and
(6) Compensation of court appointed experts and interpreters.
(d) No

civil

action

in

federal

district

court prior

to filing

an

administrative claim - (1) Except as provided in paragraph (d)(2) of this section,
no action under paragraph (a) of this section shall be maintained in any federal
district court before the earlier of the following dates:
(i) The date the decision is rendered on a claim filed in accordance
with paragraph (e) of this section; or
(ii) The date six months after the date an administrative claim is filed in
■ •u

accordance with paragraph (e) of this section.
(2) If an administrative claim is filed in accordance with paragraph (e) of this
section during the last six months of the period of limitationsdescribed
in paragraph (g) of this section, the taxpayer may file an action in federal
district court any time after the administrative claim is filed and before the
expiration of the period of limitations.
(e) Procedures for an administrative claim (1) Manner. An administrative claim for the lesser of $1,000,000 ($100,000 in
the case of negligence) or actual, direct economic damages as defined
in paragraph (b) of this section shall be sent in writing to the Area Director,
A25

Attn:

Compliance

Technical Support Manager of the

area in which

the taxpayer currently resides.
(2) Form. The administrative claim shall include:
(i) The name, current address, current home and work telephone numbers
and any convenient times to be contacted, and taxpayer identification
number of the taxpayer making the claim;
(ii) The grounds, in reasonable detail, for the claim (include copies of any
available substantiating documentation or correspondence with the Internal
Revenue Service);
(iii) A description of the injuries incurred by the taxpayer filing the claim
(include copies of any available substantiating documentation or evidence);
(iv) The dollar amount of the claim, including any damages that have not yet
been incurred but which are reasonably foreseeable (include copies of any
available substantiating documentation or evidence); and
(v) The signature of the taxpayer or duly authorized representative.
For purposes of this paragraph, a duly authorized representative is any attorney,
certified public accountant, enrolled actuary, or any other person permitted to
represent the taxpayer before the Internal Revenue Service who is not disbarred
or suspended from practice before the Internal Revenue Service and who has a
written power of attorney executed by the taxpayer.
(£) No action in federal district court for any sum in excess of the dollar
A26

amount sought in the administrative claim. No action for actual, direct
economic damages under paragraph (a) of this section shall be instituted in
federal district court for any sum in excess of the amount (already incurred and
estimated) of the administrative claim filed under paragraph (e) of this section,
except where the increased amount is based upon newly discovered evidence not
reasonably discoverable at the time the administrative claim was filed, or upon
allegation and proof of intervening facts relating to the amount of the claim.
(g) Period of limitations (1) Time for filing. A civil action under paragraph (a) of this section must be
brought in federal district court within 2 years after the date the cause
of action accrues.
(2) Right of action accrues. A cause of action under paragraph (a) of this
section accrues when the taxpayer has had a reasonable opportunity to discover
all essential elements of a possible cause of action.
(h) Recovery of costs under section 7430. Reasonable litigation costs, including
attorney's fees, not recoverable under this section may be recoverable under
section 7430. If following the Internal Revenue

Service's denial of an

administrative claim on the grounds that the Internal Revenue Service did not
violate section 7433(a), a taxpayer brings a civil action for damages in a district
court of the United States, and establishes entitlement to damages under this
section, substantially prevails with respect to the amount of damages in
controversy and meets the requirements of section 7430(c)(4)(A)(iii) (relating
A27

to notice and net worth requirements), the taxpayer will be considered a
“prevailing party” for purposes of section 7430. Such taxpayer, therefore, will
generally be entitled to attorney's fees and other reasonable litigation costs not
recoverable under this section. For purposes of this paragraph, if the Internal
Revenue Service does not respond on the merits to an administrative claim for
damages within six months after the claim is filed, the Internal Revenue Service's
failure to respond shall be considered a denial of the claim on the grounds that the
Internal Revenue Service did not violate section 7433(a). Administrative costs,
including

attorney's

fees

incurred

pursuing

an

administrative

claim

under paragraph (e) of this section, are not recoverable under section 7430.
(i) Effective dates. The portions of this section relating to reckless or intentional
acts are applicable to actions taken by Internal Revenue Service officials after
July 30, 1996. The portions of this section relating to negligent acts are applicable
to actions taken by the Internal Revenue Service officials after July 22, 1998.

A28

Calculating “gross income At A Glance”

1) Labor is property (see Butcher’s Union Co. v. Crescent City Co., Ill U.S.
746. At 756-757 (1883)).
2) The term “any” in all inclusive unless the law makes an exception, (see
U.S. v. Monsanto, 491 U.S. 600, 607-611 and (syllabus) (1989); United
States v. Alvarez-Sanchez, 511 U.S. 350, 357 (1994); U.S. v. Gonzales, 520
U.S. 1, 4-6 (1997); Department of Housing and Urban Renewal v. Rucker,
535 U.S. 125, 130-31 (2002) citing Gonzalez and Monsanto). No exception
for labor under 26 CFR § 1.83-3(g), or anywhere else.
3) 26 USC § 61 Gross income defined.
a. (a) Except as otherwise provided in this subtitle, gross income
means all income from whatever source derived, including (but not
limited to) the following items:
i. (1) Compensation for services... (to which 26 USC § 83
applies)
ii. (3) Gains derived from dealings in property;
4) 26 CFR 1.61-6. Gains derived from dealings in property. a. In general. Gain realized on the sale or exchange of
property is included in gross income, unless excluded by law.
For this purpose property includes tangible items, such as
a building, and intangible items, such as goodwill. Generally,
the gain is the excess of the amount realized over the
A29

unrecovered cost or other basis for the property sold or
exchanged. The specific rules for computing the amount of
gain or loss are contained in section 1001 and the
regulations thereunder.
5) 26 USC § 83(a) Separate the “amount paid” from the excess (gain).
6) 26 CFR 1.83-1 Implements § 83 and applies to all compensation.
7) 26 CFR § 1.83-3(g) Amount paid. For purposes of section 83 and the
regulations thereunder, the term “amount paid” refers to the value of any
money or property paid for the transfer of property to which section 83
applies...
8) 26 CFR 1.83-4(b)(2) If 1.83-1 applies, go to § 1012 to figure cost.
9) 26 USC § 1012 Cost is property, all kinds of property - tangible and
intangible.
10)26 USC § 1011 Cost is also known as “adjusted basis”.
11)26 CFR 1.1011-1 Cost is also known as “adjusted basis”.
12)26 USC § 1001 Adjusted basis must be subtracted to identify excess.
13)26 CFR 1.1001-l(a) Adjusted basis must be “restored”, what is left is the
gam.
(Note: IRS Publication 17 / Basis of Property / Cost Basis affirms services
(labor) are “cost” to the provider. See Appendix A7.)

A30

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA

Richard E. Boggs,
Plaintiff,

C/A No.: 3:18-1915-MGL-SVH

vs.

REPORT AND RECOMMENDATION

United States of America,
Defendant.

Richard E. Boggs (“Plaintiff’), proceeding pro se, filed this action against
the United States of America (“Defendant”). Pursuant to the provisions of 28
U.S.C. § 636(b)(1)(B) and Local Civ. Rule 73.02(B)(2)(e) (D.S.C.), this matter has
been referred to the undersigned for all pretrial proceedings. This matter comes
before the court on Defendant’s motion to dismiss pursuant to Fed. R. Civ. P.
12(b)(6). The motion having been fully briefed [ECF Nos. 16, 17, 18], it is ripe for
disposition. For the reasons that follow, the undersigned recommends that the
district judge grant Defendant’s motion to dismiss this case.
I. Factual and Procedural Background
This is the fourth case Plaintiff has filed seeking to challenge the IRS’s
issuance on or about October 27, 2016 of a “lock-in letter” to his employer, Logic
Technology, Inc. (“LTI”) to disregard the W-4 form Plaintiff had submitted. See
3:16-cv-01178-MGL Boggs v. United States et al. (“Boggs I”), 3:16-cv-02865-MGL
Boggs v. United States et al. (“Boggs II”), 3:17-cv-02166-MGL Boggs v. Logic
A31

Technology, Inc. et al. (“Boggs III”). 1 In compliance with the lock-in letter, LTI
withheld income taxes from Plaintiffs wages. Plaintiff seeks damages pursuant
to 26 U.S.C. § 7433 against the United States in the amount of $403,459.68—
3,459.68 for compensation he claims was unlawfully withheld, plus $100,000 for
each of the four lock-in letters. Specifically, Plaintiff argues that his wages are
not taxable income.
II. Discussion
A. Standard on Motion to Dismiss
To survive a motion to dismiss under Fed. R. Civ. P. 12(b)(6), “a complaint
must contain sufficient factual matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.’” Ashcroft v. Iqbal, 129 S. Ct. 1937, 1949 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). The court is “not
required to accept as true the legal conclusions set forth in a plaintiffs
complaint.” Edwards v. City of Goldsboro, 178 F.3d 231, 244 (4th Cir. 1999).
Indeed, “[t]he presence of a few conclusory legal terms does not insulate a
complaint from dismissal under Rule 12(b)(6) when the facts alleged in the
complaint cannot support the legal conclusion.” Young v. City of Mount Ranier,
238 F.3d 567, 577 (4th Cir. 2001).

1 The court takes judicial notice of its own records. Ceo v. Ozmint, 2006 WL
2850538, at *2 (D.S.C. Sept. 29, 2006) (“This court may take judicial notice of its
own records in this prior case.”) (citing Colonial Penn Ins. Co. v. Coil, 887 F.2d
1236, 1239 (4th Cir. 1989)( “. . . ‘[t]he most frequent use of judicial notice of
ascertainable facts is in noticing the content of court records.’”)).
A32

Pro se complaints are held to a less stringent standard than those drafted
by attorneys. Gordon v. Leeke, 574 F.2d 1147, 1151 (4th Cir. 1978). A federal
court is charged with liberally construing a complaint filed by a pro se litigant to
allow the development of a potentially meritorious case. Erickson v. Pardus, 551
U.S. 89, 94 (2007). When a federal court is evaluating a pro se complaint, the
plaintiffs allegations are assumed to be true. Fine v. City of N.Y., 529 F.2d 70,
74 (2d Cir. 1975). The mandated liberal construction afforded to pro se pleadings
means that if the court can reasonably read the pleadings to state a valid claim
on which the plaintiff could prevail, it should do so. Nevertheless, the
requirement of liberal construction does not mean that the court can ignore a
clear failure in the pleading to allege facts which set forth a claim currently
cognizable in a federal district court. Weller v. Dep’t of Soc. Servs., 901 F.2d 387,
390-91 (4th Cir. 1990).
B. Analysis
As in his previous cases, Plaintiff seeks to restrain Defendant’s ability to
assess and collect taxes. The Anti-Injunction Act, however, bars this relief.
The Anti-Injunction Act, 26 U.S.C. § 7421(a) provides that unless certain
statutory exceptions are applicable, “no suit for the purpose of restraining the
assessment or collection of any tax shall be maintained in any court by any
personf.]” The Supreme Court has indicated that the purpose of the AntiInjunction Act is “the protection of the Government’s need to assess and collect
taxes as expeditiously as possible with a minimum of preenforcement judicial
A33

interference, ‘and to require that the legal right to the disputed sums be
determined in suit for a refund.’” Bob Jones Univ. v. Simon, 416 U.S. 725, 736
(1974). Although there are limited statutory exceptions to the Anti-Injunction
Act, Plaintiff has not alleged any facts to show that any of the statutorily-created
exceptions apply.
There are also limited judicial exceptions to the Anti-Injunction Act. See
Enochs v. Williams Packing & Navigation Co., 370 U.S. 1, 7 (1962). To establish
a claim for injunctive relief under the holding in Enochs, the taxpayer must
show: (1) under the most liberal view of the applicable laws and facts, it is clear
that the government cannot prevail on the merits; and (2) absent an injunction,
irreparable injuries will occur for which there is no adequate remedy at law. 370
U.S. at 6-7. Unless both of these prerequisites are met, “a suit for preventive
injunctive relief must be dismissed.” United States v. American Friends Serv.
Comm., 419 U.S. 7, 10 (1974).
Plaintiff has not alleged any facts to show that he can meet either of the
Enochs prerequisites. First, Plaintiff has failed to demonstrate that the
government cannot prevail on the merits. As to the second Enochs factor,
Plaintiff has adequate remedies at law. The right of a taxpayer to petition the
Tax Court and his right, in the alternative, to sue for a refund in a federal
district court are adequate remedies at law. See, e.g., Bob Jones Univ., 416 U.S.
at 746; Cool Fuel, Inc. v. Connett, 685 F.2d 309, 314 (9th Cir. 1982) (citing Bailey
v. George, 259 U.S. 16 (1922)) (“Since the Supreme Court decision in [Bailey], it
has been established that payment of the tax followed by a suit for refund
A34

constitutes an adequate remedy at law.”); Hobson v. Fischbeck, 758 F.2d 579,
581 (11th Cir. 1985) (holding injunctive relief to be improper when plaintiff
“could pay the disputed tax and then sue for a refund”). Because Plaintiff has not
alleged any facts to show that any of the statutory or judicially created
exceptions to the Anti-Injunction Act are applicable, the undersigned
recommends this action be dismissed. Other courts have similarly rejected
arguments similar to those argued by Plaintiff. See, e.g., Fennel v. Comm’r, 579
F. App’x 767, 769 (11th Cir. 2014) (“We have said that arguments that wages are
not taxable income have ‘been rejected by courts at all levels of the judiciary and
are patently frivolous.’”); Richmond v. Comm’r, 474 F. App’x 754, 755 (10th Cir.
2012) (rejecting the argument as “completely lacking in legal merit and patently
frivolous”); Callahan v. Comm’r, 334 F. App’x at 755 (affirming the imposition of
sanctions for filing appeal advancing the same frivolous argument); see also
Crain v. Comm’r, 737 F.2d 1417, 1418 (5th Cir. 1984) (holding that a specific
response to long-held frivolous tax protestor arguments is not required). The IRS
website has a section devoted to frivolous tax arguments, including that
presented by Plaintiff. See The Truth About Frivolous Tax Arguments—Section I
(A to C), Internal Revenue Service, Sept. 26, 2018, https://www.irs.gov/privacydisclosure/the-truth-about-frivolous-tax-arguments-section-i-a-toc#_Toc350157891 (last visited 12/4/2018). Because Plaintiff has failed to
demonstrate a plausible claim for relief, Defendant’s motion to dismiss should be
granted under Fed. R. Civ. P. 12(b)(6).
III. Conclusion and Recommendation
A3 5

For the foregoing reasons, the undersigned recommends that the court
grant Defendant’s motion to dismiss.
IT IS SO RECOMMENDED.
December 6, 2018

Shiva V. Hodges

Columbia, South Carolina

United States Magistrate Judge

The parties are directed to note the important information in the
attached “Notice of Right to File Objections to Report and
Recommendation.”
Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to
this Report and Recommendation with the District Judge. Objections must
specifically identify the portions of the Report and Recommendation to which
objections are made and the basis for such objections. “[I]n the absence of a
timely filed objection, a district court need not conduct a de novo review, but
instead must ‘only satisfy itself that there is no clear error on the face of the
record in order to accept the recommendation.’” Diamond v. Colonial Life & Acc.
Ins. Co., 416 F.3d 310 (4th Cir. 2005) (quoting Fed. R. Civ. P. 72 advisory
committee’s note).
Specific written objections must be filed within fourteen (14) days of the
date of service of this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R.
Civ. P. 72(b); see Fed. R. Civ. P. 6(a), (d). Filing by mail pursuant to Federal Rule
of Civil Procedure 5 may be accomplished by mailing objections to:
Robin L. Blume, Clerk
United States District Court
901 Richland Street
Columbia, South Carolina 29201
Failure to timely file specific written objections to this Report and
Recommendation will result in waiver of the right to appeal from a judgment of
the District Court based upon such Recommendation. 28 U.S.C. § 636(b)(1);
Thomas v. Arn, 474 U.S. 140 (1985); Wright v. Collins, 766 F.2d 841 (4th Cir.
1985); United States v. Schronce, 727 F.2d 91 (4th Cir. 1984).

A36

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION

RICHARD BOGGS,
Plaintiff,
vs.

CIVIL ACTION NO. 3:18-1915-MGL

UNITED STATES OF AMERICA,
Defendants.

ORDER ADOPTING THE REPORT AND RECOMMENDATIONS
AND GRANTING DEFENDANT’S MOTION TO DISMISS

Plaintiff Richard Boggs (Boggs) filed this complaint against the United
States of America (the U.S.A.) challenging the Internal Revenue Service’s issuance
of a “lock-in letter” to his employer to disregard the W-4 form Boggs had submitted.
He is self represented.
The

matter is

before the

Court for review

of the

Report

and

Recommendation of the United States Magistrate Judge suggesting the U.S.A.’s
motion to dismiss be granted under Fed. R. Civ. P. 12(b)(6). The Report was made
in accordance with 28 U.S.C. § 636 and Local Civil Rule 73.02 for the District of
South Carolina.
The Magistrate Judge makes only a recommendation to this Court. The
recommendation has no presumptive weight. The responsibility to make a final
determination remains with the Court.
Mathews v. Weber, 423 U.S. 261, 270 (1976). The Court is charged with
A37

making a de novo determination of those portions of the Report to which specific
objection is made, and the Court may accept, reject, or modify, in whole or in part.
the recommendation of the Magistrate Judge or recommit the matter with
instructions. 28 U.S.C. § 636(b)(1).
The Magistrate Judge filed the Report on December 6, 2018. The Clerk of
Court entered Boggs’s objections on December 17, 2018, his supplement to his
complaint on March 1, 2019, and his supplement to his objections on April 5, 2019.
Boggs’s objections are a scattershot collection of case citations, conclusory
arguments, and the like. Although he offers few specific objections, in an
abundance of caution, the Court has made a de novo review of the entire record
and concludes the Magistrate Judge is correct: Boggs has failed to state a claim
upon which relief can be granted. Therefore, dismissal of his complaint is
appropriate. Because the Court agrees with the Magistrate Judge’s well-reasoned
opinion, it need not repeat the analysis here.
After a thorough review of the Report and the record in this case pursuant
to the standard set forth above, the Court overrules Boggs’s objections, adopts the
Report, and incorporates it herein.
Therefore, it is the judgment of this Court the U.S.A.'s motion to dismiss is
GRANTED in accordance with Fed. R. Civ. P. 12(b)(6).
To the extent Boggs requests the Court recuse itself from this case,
inasmuch as Boggs has failed to demonstrate recusal is appropriate, the request
is DENIED.
IT IS SO ORDERED.
A3 8

Signed this 16th day of July, 2019, in Columbia, South Carolina.
/s/ Mary Geiger Lewis
MARY GEIGER LEWIS
UNITED STATES DISTRICT JUDGE
•k'k'k icie

NOTICE OF RIGHT TO APPEAL
Boggs is hereby notified of the right to appeal this Order within sixty days
from the date of this Order in accordance with the Federal Rules of Appellate
Procedure.

A39

